   United States Department of Agriculture
   Office of Inspector General




Farm Service Agency, 2008 Farm Bill's
Changes to Payment Limitation




                                             Audit Report 03601-0050-Te
                                             June 2012
                           United States Department of Agriculture
                                   Office of Inspector General
                                    Washington, D.C. 20250




DATE:          June 20, 2012

AUDIT
NUMBER:        03601-0050-Te

TO:            Bruce E. Nelson
               Administrator
               Farm Service Agency

ATTN:          Philip Sharp
               Director
               Operations Review and Analysis Staff

FROM:          Gil H. Harden
               Assistant Inspector General for Audit

SUBJECT:       2008 Farm Bill’s Changes to Payment Limitation


This report presents the results of the subject audit. Your written response to the official draft
report is included at the end of the report. As no recommendation was made in the report, no
further response for this audit is necessary.

We appreciate the courtesies and cooperation extended to us by members of your staff during our
audit fieldwork and subsequent discussions.
Table of Contents

Executive Summary .................................................................................................1
Background and Objectives ....................................................................................2
Scope and Methodology...........................................................................................3
Abbreviations ...........................................................................................................5
Exhibit A: FSA Offices Visited and Contacted ....................................................6
Agency’s Response ...................................................................................................7
2008 Farm Bill’s Changes to Payment Limitation

Executive Summary

The 2008 Farm Bill made significant changes in how the United States Department of
Agriculture would administer payment limits and determine who is eligible for payments. 1
Specifically, beginning with the 2009 crop, fiscal, or program year, as applicable, payments
made to entities, such as farming corporations, were tracked (attributed) to the owners of those
entities, while the payment limits that applied to the entities themselves under the 2002 Farm Bill
were retained. Direct attribution had the potential for some reduction in Government outlays, but
it was expected that such reductions would diminish as farmers reorganized their operations in
order to capture the highest possible payments. For the 2010 program year, Farm Service
Agency (FSA) paid out over $4.7 billion in program payments subject to limitation.2

We initiated this audit to determine whether FSA’s internal controls were adequate to ensure that
any increase in the number of payment limitations for a farming operation was bona fide and
substantive. However, we were unable to test the controls for compliance and answer our
objective because FSA’s data were not sufficiently reliable for us to identify the universe of
farming operations that had an increase in the number of payment limitations for program
year 2010.

During the course of the audit, we provided FSA information on our noted concerns regarding
the quality of its data system and other issues that arose during our review.3 FSA acknowledged
our concerns, took some corrective action during the audit, and generally stated that deployment
of its new web-based system would address data concerns. Accordingly, we did not make any
recommendations in this report.

The Agency’s written response to the draft report is included at the end of this report. In its
response, the agency acknowledged that its entity database was not sufficiently reliable for OIG
to identify farming operations with increases in the number of persons for payment limitations,
and then asserted that it has internal controls in place if there is an increase in the number of
persons or legal entities subject to payment limitation in a farming operation. As we could not
identify the universe of farming operations that had an increase in the number of payment
limitations, we performed no testing on these controls.




1
  Public Law 110-246.
2
  This $4.7 billion includes only Direct and Counter-cyclical Program payments.
3
  Such concerns and issues included (1) joint ventures that were not recorded in FSA’s database, (2) multi-county
farming operations’ members’ shares that differed from county to county in the database, (3) substantive change
flags that were used to reduce payments for reasons other than those related to substantive change, and (4) payment
limitation and payment eligibility determinations for farming operations with six or more members that were not
made at the correct (FSA State office) level.

                                                                        AUDIT REPORT 03601-0050-Te                1
Background and Objectives

Background
FSA administers and manages farm commodity, conservation, disaster, and loan programs as
laid out by Congress through a network of Federal, State, and county offices.4 Limitations on the
total annual payments that a “person” may receive under such programs have been in effect since
enactment of the Agriculture Act of 1970.5

Beginning in 2009, the 2008 Farm Bill established a system of “direct attribution” to match
program payments with a natural person—i.e., the total amount of payments must be attributed
(linked) to an individual by taking into account the individual’s direct and indirect ownership
interest in a legal entity—while retaining the payment limits that applied to the entities
themselves. Therefore, every payment made directly to a person is combined with that person’s
pro rata interest in payments received by a legal entity in which the person has an ownership
interest, and every payment made to a legal entity is attributed to those persons with an
ownership interest in the entity.

The new regulations effective for 2009 and subsequent years also provide more restrictive
payment eligibility requirements for new persons and legal entities that are added to an existing
farming operation. The 2008 Farm Bill provides that any change in a farming operation that
otherwise will increase the number of persons to which the payment limitations are applied may
not be approved unless the change is bona fide and substantive. Generally, if bona fide, the
following will be considered to be a substantive change in the farming operation: the addition of
a family member, a change from cash rent to share rent, an increase in base acres, a change in
ownership of land, or a change in ownership of equipment. Such substantive change
determinations are to be made by FSA county offices for farming operations with five or less
members and by FSA State offices for operations with six or more members.

FSA records in its automated subsidiary files information used by various processes to determine
whether applicants are eligible for program benefits and the amount of the program benefits that
can be issued. This information includes but is not limited to a farming operation’s member
information and substantive change determinations made by FSA.

Objectives
Our audit objective was to determine whether FSA’s internal controls were adequate to ensure
that changes in farming operations that otherwise would increase the number of persons to which
the limitation applied were bona fide and substantive.




4
  FSA’s national administrative functions are managed in Washington, D.C. Implementation of farm policy through
FSA programs is the responsibility of field offices based in States, counties, and territories.
5
  Public Law 91-524.

2     AUDIT REPORT 03601-0050-Te
Scope and Methodology
We conducted our audit of FSA’s substantive change controls at the FSA national office, at the
Louisiana and Texas State offices, and at four FSA county offices in Texas.6 In addition, we
interviewed officials and reviewed records from 22 additional FSA county offices (see exhibit A).
Our audit covered changes in farming operations for 2010 that increased the number of persons to
which the payment limitations were applied.

To accomplish our objective, we:

    ·    reviewed relevant laws, regulations, and guidance, including FSA handbooks and FSA
         national notices;
    ·    interviewed FSA personnel and reviewed records at FSA’s national, State, and county
         offices;
    ·    obtained and reviewed a copy of FSA’s 2009 and 2010 entity files, to identify changes in
         farming operations from 2009 to 2010; and
    ·    obtained and reviewed FSA-generated nonpayment reports.

We found that FSA’s entity database, as it was provided to the Office of Inspector General, was
not sufficiently reliable for us to identify farming operations with increases in the number of
persons for payment limitation purposes. This determination is based on our site visits to and
review of records maintained at the Louisiana and Texas State offices and four Texas county
offices (see exhibit A) and interviews with FSA’s national office personnel.

Specifically, we learned that joint ventures without permanent identification numbers were not
recorded in FSA’s entity database,7 and multi-county farming operations’ members’ shares
differed from county to county in the database.8 In addition, we found that payment limitation


6
  We selected the Louisiana and Texas State offices for review because of their physical proximity to our field office
and to limit overall travel cost. In addition, we identified Texas as one of the three States with the largest number of
farming operations with increases in the number of persons. At the State offices, we reviewed records for farming
operations with six or more members. In Texas, we selected three of the counties for review based on their large
numbers of farming operations with increases in persons and their proximity to each other. We selected the fourth
Texas county based on its physical proximity to our office.
7
  FSA policy does not require a joint venture to obtain a tax identification number to participate in FSA programs.
For a joint venture without a permanent identification number, FSA enters into the Service Center Information
Management System separate “customer core data” (name and address data) records for the joint venture and for
each of its members, to include the customer’s identification number, if any; the members sign contracts,
applications, and other program forms; and FSA issues all program payments to the members, not to the joint
venture. The joint venture is not recorded in FSA’s (entity file) database.
8
  Member data should be consistent regardless of the number of counties where the farming operation participates.
In May 2009, FSA issued a Notice (Public Law-191) to State and county offices alerting them to situations where
member data were recorded differently from county to county for multi-county farming operations (“shares differ by
county”); notifying them of an available report of affected farming operations; instructing county offices to correct
the share errors by September 1, 2009; and notifying State and county offices that, for a multi-county farming
operation, FSA’s software systems read member data from only the farming operation’s control/recording county.
Despite the Notice’s deadline for resolution of identified differences, there were still differences during the period of
our review. According to FSA, this issue of “shares differ by county” is resolved with deployment of FSA’s new

                                                                           AUDIT REPORT 03601-0050-Te                  3
and payment eligibility determinations for farming operations with six or more members were
not made at the correct (FSA State office) level.

As an alternative approach to identify farming operations with increases in persons for 2010, we
requested FSA provide a report of 2009 and 2010 farming operations whose payments were
reduced because of the substantive change provisions.9 The report listed only 11 operations for
2009 and 6 operations for 2010; 1 operation was on the list for both years. We contacted
22 county offices in 11 States (several of the operations on the list were multi-county) to verify
the substantive change determinations. We obtained and reviewed FSA’s records for the farming
operations and found that in only 1 of the 17 cases had FSA determined the operation did not
meet the substantive change provisions. In all other cases, the county offices had either
inadvertently flagged the operation as not having met substantive change provisions or used the
substantive change flag to effect payment reductions for other reasons.

As a last resort, we asked FSA if it could provide us with a list of all farming operations with
increases in persons for 2010 payment limitation purposes. FSA was unable to provide a list at
that time.

We conducted this performance audit from March 2010 through February 2012, in accordance
with generally accepted Government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. After substantial testing of FSA’s
data, we concluded it was not sufficiently reliable for us to identify the universe of farming
operations that had an increase in the number of payment limitations for program year 2010.
Therefore, we were unable to accomplish the audit objective and thus terminated the audit.




web-based subsidiary system business file (in which only the recording county will have the ability to update
subsidiary customer records).
9
  When FSA receives a new farm operating plan that reflects an increase in the number of limitations for payment
from the previous year, it determines if there was a substantive change in the operation to support the increase. As
FSA county office staff enter information from, and determinations based on, the new plan, there is a database field
for them to enter “Y” (yes) or “N” (no) to answer if the operation has met substantive change requirements relative
to the new member(s)/limitation(s). Entering “no” precludes the new member(s) from receiving an FSA program
payment for that operation because substantive change requirements were not met.

4     AUDIT REPORT 03601-0050-Te
Abbreviations
FSA ………………… Farm Service Agency




                                  AUDIT REPORT 03601-0050-Te   5
Exhibit A: FSA Offices Visited and Contacted

       State           FSA Office Visited
     Louisiana         State Office, Alexandria
                       State Office, College Station
                       Bell County Office, Belton
       Texas
                       Hale County Office, Plainview
                       Lubbock County Office, Lubbock
                       Terry County Office, Brownfield



       State           FSA Office Contacted10
                       Desha County Office, McGehee
     Arkansas
                       Lincoln County Office, Star City
     California        Kern County Office, Bakersfield
     Colorado          Prowers County Office, Lamar
                       Early County Office, Blakely
      Georgia          Miller County Office, Colquitt
                       Seminole County Office, Donalsonville
                       Bureau County Office, Princeton
      Illinois         Henry County Office, Cambridge
                       Jo Daviess County Office, Elizabeth
                       Calhoun County Office, Rockwell City
                       Clay County Office, Spencer
        Iowa
                       Palo Alto County Office, Emmetsburg
                       Pocahontas County Office, Pocahontas
                       Acadia County Office, Crowley
     Louisiana
                       Vermilion County Office, Abbeville
                       Norman County Office, Ada
     Minnesota
                       Roseau County Office, Roseau
     Nebraska          Kearney County Office, Minden
     Oklahoma          Texas County Office, Guymon
                       Lafayette County Office, Darlington
     Wisconsin
                       Washington County Office, West Bend



10
  We contacted these offices regarding 2009 or 2010 substantive change flags that effected reductions in farming
operations’ payments.

6     AUDIT REPORT 03601-0050-Te
Agency’s Response




                  USDA’S
           FARM SERVICE AGENCY
         RESPONSE TO AUDIT REPORT




                         AUDIT REPORT 03601-0050-Te   7
United States
Department of
                     -
                     USDA



Agriculture

Farm and
                      DATE:          June 6, 2012
Foreign
Agricultural
Services              TO:            Director, Farm and Foreign Agriculture Division
Farm
                                     Office of Inspector General

                                                              G~~
Service
Agency
                      FROM:          Philip Sharp, Director
Operations Review                    Operations Review and Analysis Staff
and Analysis Staff

1400 Independence     SUBJECT:       Response to Official Draft Report, Farm Bill Payment Limitation
Ave., SW
Stop 0540                            Provisions Changes in Farming Operations, Audit 03601-0050-TE
Washington, DC
20250-0541
                      The Farm Service Agency (FSA) has reviewed the subject audit report. The Office of
                      Inspector General (OIG) reported that they were unable to test the controls for
                      compliance because FSA's data was not sufficiently reliable for OIG to identify the
                      universe of farming operations that had an increase in the number of payment
                      limitations for program year 2010. FSA would like to submit the following
                      comments pertaining to this OIG audit report.

                      Even though FSA's entity database was not sufficiently reliable for OIG to identify
                      farming operations with increases in the number of persons for payment limitations,
                      internal controls are in place if there is an increase in the number of persons or legal
                      entities subject to payment limitation in a farming operation. Participants are advised
                      that actively engaged in farming determinations remain in effect for the current and
                      subsequent years and a new farm operating plan is not required unless a change
                      occurs in the farming operation that would affect those determinations. An increase
                      in the number of persons in a farming operation would require participants to submit
                      a new farm operating plan for a new actively engaged in farming determination by
                      FSA, and if substantive change provisions are not met, then the new persons or legal
                      entities are ineligible for payment.

                      FSA has successfully established an automated system of direct attribution to match
                      program payments with a natural person as indentified in the OIG audit report, and
                      every payment made directly or indirectly is attributed for payment limitation
                      purposes as required by the 2008 Farm Bill. With the deployment of the business file
                      functionality for FSA County Offices to record farm operating plans and actively
                      engaged in farming determinations through a web-based application process, an
                      automated system in place that only allows only the recording county to update
                      eligibility and payment limitation data. The recording county is the County Office
                      assigned the specific responsibilities for updating the eligibility and payment
                      limitation data for a participant.

                      As pointed out above, web-based system controls have been deployed and changes to
                      a farming operation have and continue to require a determination by FSA to the
                      participant regarding their eligibility for FSA payments.
Informational copies of this report have been distributed to:

Administrator, Farm Service Agency (2)
      Attn: Director, Operations Review and Analysis Staff

Government Accountability Office

Office of Management and Budget

Office of the Chief Financial Officer
       Director, Planning and Accountability Division
To learn more about OIG, visit our website at
www.usda.gov/oig/index.htm
How To Report Suspected Wrongdoing in USDA Programs

Fraud, Waste, and Abuse
In Washington, DC 202-690-1622
Outside DC 800-424-9121
TDD (Call Collect) 202-690-1202

Bribes or Gratuities
202-720-7257 (Monday-Friday, 9:00a.m.- 3 p.m.               ED




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on the basis of race, color, national origin,
age, disability, and where applicable, sex (including gender identity and expression), marital status, familial status, parental status, religion, sexual
orientation, political beliefs, genetic information, reprisal, or because all or part of an individual's income is derived from any public assistance program.
(Not all prohibited bases apply to all programs.) Persons with disabilities who require alternative means for communication of program information
(Braille, large print, audiotape, etc.) should contact USDA's TARGET Center at (202) 720-2600 (voice and TDD). USDA is an equal opportunity provider
and employer.
